<html>
<title> - JORDAN: A KEY U.S. PARTNER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       JORDAN: A KEY U.S. PARTNER

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2016

                               __________

                           Serial No. 114-157

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
98-604PDF                      WASHINGTON : 2016                          
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e5f2edc2e1f7f1f6eae7eef2ace1edefac">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Gerald M. Feierstein, Principal Deputy Assistant 
  Secretary, Bureau of Near Eastern Affairs, U.S. Department of 
  State..........................................................     7
Ms. Paige Alexander, Assistant Administrator, Bureau for the 
  Middle East, U.S. Agency for International Development.........    15
Ms. Fatema Z. Sumar, Regional Deputy Vice President, Europe, 
  Asia, the Pacific and Latin America, Department of Compact 
  Operations, Millennium Challenge Corporation...................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gerald M. Feierstein: Prepared statement...........    10
Ms. Paige Alexander: Prepared statement..........................    17
Ms. Fatema Z. Sumar: Prepared statement..........................    25

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
Questions submitted for the record by the Honorable Ileana Ros-
  Lehtinen, a Representative in Congress from the State of 
  Florida, and chairman, Subcommittee on the Middle East and 
  North Africa, and written responses from:
  The Honorable Gerald M. Feierstein.............................    40
  Ms. Paige Alexander to.........................................    44

 
                       JORDAN: A KEY U.S. PARTNER

                              ----------                              


                      THURSDAY, FEBRUARY 11, 2016

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. Thank you so much. The subcommittee will 
come to order. I know that our panelists are going to be 
stepping out here in a second.
    We will have votes starting at possibly 3 o'clock or 3:15 
so we will try to wrap up before then. After recognizing myself 
and Ranking Member Deutch for 5 minutes each for our opening 
statements, I will then recognize other members seeking 
recognition for 1 minute.
    We will then hear from our witnesses, and without objection 
the prepared statements of our witnesses will be made a part of 
the record and members may have 5 days to insert statements and 
questions for the record subject to the length limitation in 
the rules.
    The chair now recognizes herself for 5 minutes. In recent 
years, the Hashemite Kingdom of Jordan has turned into one of 
America's most important allies.
    The King of Jordan had proven to be a reliable partner and 
someone who is committed to protecting our shared security 
interest.
    With all of the violence, all of the turmoil in the region 
and the accompanying instability and insecurity, the U.S. has 
made a substantial commitment to strengthening our bilateral 
relations with the Kingdom.
    That commitment was reflected in a renewal of our 
memorandum of understanding, MOU, with Jordan, which was signed 
a year ago last week.
    This new MOU recognizes the importance of Jordan in the 
fight on the front lines against ISIS and radical 
fundamentalism as well as the Kingdom's leadership in taking in 
over 1 million refugees from Syria and Iraq.
    Jordan's resources are already scarce and with the addition 
of over 1 million Syrian and Iraqi refugees, these resources 
are being strained to the limit--stretched to the limit.
    That is why it is vital that we help Jordan shore up some 
of these resources, especially when it comes to the Kingdom's 
water needs and energy needs.
    Through our MCC-Jordan Compact, a $275 million compact that 
nears its completion, we have invested in public-private 
partnership wastewater projects that are now operational and 
serving over 1 million people, many of whom are refugees.
    I had the pleasure of visiting the As-Samra Wastewater 
Plant in 2014 with Mr. Deutch and its importance cannot be 
overstated.
    I am also pleased that a local south Florida firm, Hazen 
and Sawyer, was the engineering firm that managed the project, 
proof that these MCC compacts and projects can benefit both the 
U.S. economy and also the host nations.
    There are other projects and it is important that we begin 
to bring them to fruition. One of these will not only be 
important to alleviate the water shortage in Jordan but it has 
the potential to also improve the cooperation and bilateral 
relations between Israel and Jordan--the Red to Dead Project.
    Continued U.S. investment in this sort of infrastructure 
project has enormous upside and can really be a game changer 
and it is critical that Congress remains supportive of these 
efforts.
    There is also the benefit--the potential for collaborative 
work between Israel and Jordan in other areas that can be 
mutually beneficial, especially when it comes to Jordan's 
energy needs.
    Jordan signed an agreement with Israel to import natural 
gas and, again, as with the wastewater project, this agreement 
has economic benefits for the U.S. as well with U.S.-based 
Noble Energy discovering the natural gas field off the coast of 
Israel and now ready, willing and able to begin production to 
help meet the growing natural gas demand in Jordan and 
elsewhere.
    And it will be important that we continue to support these 
efforts and others just like them because Israel and Jordan 
have shared concerns, shared interests and it would be mutually 
beneficial for the two to work closely together.
    We must also continue to support the good work of USAID--
the good work that they are doing to help Jordan in its economy 
but also the work it does to strengthen the country's democracy 
and governance as well as female empowerment programs.
    The Jordanian Government's commitment to political reform 
over these past few years has been commendable and it is clear 
that our programs have had a good amount of success based on 
the interest and the support from the government and the 
Jordanian people, a testament to how this is--how this 
International Republican Institute--IRI--has been able to 
expand from working in just a handful of districts when its 
programs first started in Jordan to now over 30 and seeking to 
expand further in the coming years.
    These programs have had successes. We need to build upon 
the support these programs have received and work with the 
Kingdom to help strengthen democracy and governance in Jordan 
and to strengthen civil society.
    On security, Jordan's needs are also substantial because of 
the Kingdom--the Kingdom has been such a staunch ally in the 
coalition against ISIS, and the stability and security of 
Jordan are vital if we are ever going to see a secure and 
stable region.
    That is why I am pleased that the bill I introduced with 
Congressman Deutch and as well as Congresswomen Granger and 
Lowey, the U.S.-Jordan Defense Cooperation Act, has passed 
Congress just last night and will now make its way to the 
President's desk.
    The bill recognizes Jordan's precarious situation and the 
need for the U.S. to support the King's effort against ISIS.
    That is why it will allow for expedited sales of certain 
weapons and ammunition and excess defense articles that the 
Kingdom needs to secure its borders, to protect its citizens 
and to assist the coalition in the fight against ISIS.
    But as the King reminded us when he visited us last month, 
we cannot keep a myopic focus on the fight against ISIS and 
think that it is just in Iraq and in Syria.
    ISIS is spreading, it is gaining support elsewhere and it 
has shown that it has the capability to strike the West as 
well.
    The King warned us not to lose sight of the threat that 
ISIS poses in Africa where it can gain a lot of support and use 
a lot of territory for safe havens, and we, obviously, can't 
lose sight of the threat ISIS poses to us here in the homeland.
    This is an obvious difficult task. But it would be much 
more difficult were it not for the leadership and the 
willingness of our ally Jordan to take on this challenge 
together.
    I look forward to expanding and strengthening our 
relationship with the Kingdom of Jordan in the coming months 
and years and I thank the King for his steadfast commitment to 
the security and stability of the region, and we welcome 
Ambassador Bouran with us today.
    Thank you so much. Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    Madam Chairman, you have been a true champion of the U.S.-
Jordan relationship and I thank you for the opportunity to 
discuss the challenges facing our two countries in depth today.
    Thanks to our witnesses for being here today and for the 
work that your agencies do to promote a stable and prosperous 
Jordan and to advance the U.S.-Jordan cooperation. I would 
especially like to thank Ambassador Feierstein for his many 
years of service and wish him well in his retirement.
    And I would like to take a moment to recognize the 
Jordanian Ambassador, Ambassador Bouran, who does a fantastic 
job here in Washington and is a valued resource to many on this 
subcommittee.
    I am also pleased that legislation introduced by the 
chairman and me, the U.S.-Jordan Defense Cooperation Act, has 
now passed the House and Senate and is on its way to the 
President's desk.
    I thank our colleagues for supporting this bipartisan 
legislation that will ensure that Jordan has the tools that it 
needs to confront regional challenges.
    Just over a year ago, the United States and Jordan cemented 
our partnership in a new memorandum of understanding that 
increased U.S. assistance to Jordan from $600 million to $1 
billion annually.
    This increase reflects our commitment to Jordan's stability 
and recognition of the tremendous strain placed upon Jordan 
since the start of this hearing crisis as well as Jordan's 
willingness to partner in the fight against ISIS.
    The conflict in Syria has fundamentally altered Jordan and 
its effects will be felt for years to come. Jordan, already a 
home to hundreds of thousands of Iraqi refugees from previous 
conflicts, has taken in over 635,000 Syrian refugees and that 
number only reflects those refugees who are officially 
registered with the UNHCR.
    Jordanian officials estimate this number is probably much 
higher than that. In fact, most Syrian refugees aren't 
currently living in the two U.N.-run camps and have instead 
assimilated into Jordanian towns.
    While Jordanian host communities have welcomed Syrian 
refugees into their communities, the influx has, of course, 
placed a strain on Jordan's already scarce resources, 
particularly water and energy.
    Many of our USAID programs have focused on increasing 
access to water while reducing waste. In fact, USAID programs 
have brought fresh water and sanitation services to more than 
one-third of Jordan's population. We look forward to hearing 
more about these efforts from Assistant Administrator 
Alexander.
    Chairman Ros-Lehtinen and I had the opportunity to visit 
the As-Samra Wastewater Treatment Plant, the product of the MCC 
compact awarded to Jordan in 2010.
    The expansion of this plant will increase access to water 
for 3 million Jordanians and, as the chairman mentioned, we are 
pleased to see a south Florida company involved in such an 
important project.
    U.S. assistance has also focused on expanding access to 
education as well as infrastructure building and teacher 
training.
    We often talk about the potential for an entire lost 
generation of Syrian children and our continued focus on 
building and rehabilitating schools is a critical component to 
ensure that refugee children are able to access education in 
host communities.
    I applaud Secretary Kerry's recent announcement of $267 
million in assistance for education in Jordan. We all 
appreciate the Government of Jordan's willingness to keep its 
borders open to refugees and I acknowledge the security 
challenges that this poses.
    But as fighting in Syria's southern front increases, more 
and more refugees will be seeking safe passage to Jordan. I am 
extremely sensitive to Jordan's ability to adequately screen 
those trying to enter the country and it is my hope that those 
waiting at its borders, those who do not pose a threat to 
Jordan's stability, will be admitted as swiftly as possible.
    As the U.S. seeks to expand the contribution to the members 
of the international coalition to counter ISIS, Jordan has 
continually met our call to action.
    King Abdullah has often the need for Arab states to lead 
this fight against extremism and Jordanian planes have been 
flying missions since the formation of the coalition.
    Let me again offer condolences--our condolences--to the 
people of Jordan for the horrific loss of a Jordanian pilot at 
the hands of ISIS just 1 year ago.
    But if we want our partners to step up, we must ensure that 
they have what they need to both be active participants in the 
coalition and to defend their own borders.
    That is why the legislation I referenced earlier passed by 
the chairman and me along with our Appropriations Committee 
colleagues Chairman Granger and Ranking Member Lowey is so 
critical.
    Our bill will ensure the timely transfer of certain defense 
articles to the Kingdom. The King understands the importance of 
regional stability and recognizes the need to confront ISIS 
while working to find a political solution to the conflict in 
Syria and we appreciate the ability to consult regularly with 
him.
    As we wait to see if talks can restart, I would just again 
note that as long as Assad is in power we will not be able to 
stem the flow of refugees from Syria or to defeat ISIS.
    While the refugee crisis has no doubt strained Jordan's 
economy and resources, there are steps that can be taken now to 
reduce some of these pressures.
    The lifting of various barriers to work for Syrian refugees 
will help refugees contribute to their communities. Economic 
investment will shore up jobs for Jordanians.
    Cooperation with Israel on the Red to Dead project will 
help increase Jordan's access to water, and I thank the Kingdom 
for its commitment to peace with Israel and its recent efforts 
to reduce tensions at the Temple Mount.
    The King can play a vital role in preserving the status quo 
as Israel has committed to do and I hope that any roadblocks in 
implementing the agreement brokered by Secretary Kerry to 
install cameras at the Temple Mount can soon be worked through.
    In addition, I am alarmed by reports just this morning that 
certain members of Parliament are threatening to topple the 
government if Jordan moves ahead with the deal to import gas 
from Israel's Leviathan Field.
    This deal has the potential to bring much needed energy 
sustainability to Jordan.
    Madam Chairman, there is certainly a lot more to discuss 
when it comes to the depth of U.S. cooperation with Jordan and 
the increasingly important role that a stable Jordan plays in 
the region.
    And I look forward to hearing more from our witnesses, and 
I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Madam Chair.
    Thank you, Chairman Ros-Lehtinen and Ranking Member Deutch 
for calling this hearing on Jordan and our relationship and 
thank you to the witnesses.
    I look forward to hearing from you about how our strong 
partnership with the Kingdom of Jordan can continue, 
particularly at this critical time in our shared fight against 
violent extremism as well as a pivotal moment in the resolution 
of the Israeli-Palestinian conflict.
    I want to welcome Ambassador Bouran and again acknowledge 
her extraordinary leadership here in Washington and I would 
also like to express my appreciation to the Kingdom of Jordan 
for its leadership and its commitment to the coalition to 
defeat ISIL.
    Jordan's actions s part of this coalition have been 
significant and difficult, notably, air strikes that have been 
conducted, Jordan's allowing foreign forces to use its bases, 
Jordan's sharing of intelligence with coalition partners, and 
we have a very long and close relationship with the Kingdom and 
look forward to continued and deepening cooperation.
    The people and the Government of Jordan know all too well 
how ISIL's actions create instability and fear, which is why 
Jordan is hosting more than 630,000 refugees from Syria, and we 
appreciate this incredible sacrifice and remain committed to 
support Jordan's crisis management effort through increased 
economic support.
    I had the opportunity to visit Jordan last March. As part 
of that visit I traveled to the Zaatari refugee camp and saw 
first hand the extraordinary challenges facing the Kingdom of 
Jordan and the extraordinary work being done.
    And I look forward to the testimony of the witnesses today 
and working with the administration and my colleagues to 
further strengthen our important relationship with the Kingdom 
of Jordan.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Ms. Frankel is recognized.
    Ms. Frankel. Thank you, Madam Chair.
    And I thank you for this opportunity because I have to 
leave for a markup in a few minutes--I mean, a vote at 
Transportation.
    But I wanted to start. I thank you for the witnesses being 
here and I visited Jordan this year on a personal trip, and I 
just want to say for anyone who has never been there what a 
beautiful country it is, just magnificent--beautiful sites and 
beautiful people.
    And I want to also thank--I see our Ambassador here--just 
thank you to the people of Jordan for opening their arms to the 
refugees.
    I had an opportunity when I was there to meet with some 
women and children who had fled Syria and the issue that just 
kept coming up over and over that Mr. Deutch referenced to was 
their inability to do any work and to supplement the very 
pittance, really, of aid that they are getting.
    So I would just be curious whether--I know there has been 
some discussions to maybe have some relief in that area. So I 
would be curious as to that.
    I also would be interested to know what kind of work we are 
doing to enable Jordan to boost its economy. I was told that 
there is some work going on there.
    And I would also be interested to know whether any of it 
involves trying to advertise or boost up its tourism because I 
will tell you, I have been all over the world and going--we 
went to the desert where ``Lawrence of Arabia'' was filmed. It 
was amazing. Well, there is a lot of historic sites there.
    So I will be curious about the tourism industry. But on a 
more somber note, what is going on in Syria is so horrific and 
I am very interested in knowing what you--because the witnesses 
that are here--what you believe is the impact of Russia now 
intervening in Syria because I have heard that the rebel forces 
are being decimated and I know we have aid programs to the 
rebels and I am just wondering whether it is even worthwhile 
programs now.
    And so I would like to get your insight on that. So when I 
leave I am not going to be rude. I have to go vote. But I am 
going to catch up and whatever you say somebody will take notes 
and tell me and I will try to come back.
    Thank you very much for being here.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    We know that you are a professional all the time so there 
is no doubt when she says that she means it, and she has 
pointed out the benefits of private travel.
    She got to visit where ``Lawrence of Arabia'' was. Mr. 
Deutch and I on congressional travel went to a wastewater 
plant. So that is quite a difference.
    But now we are pleased to introduce our panelists. We 
welcome back Ambassador Gerald Feierstein, who is the principal 
deputy assistant secretary of the Bureau of Near Eastern 
Affairs.
    Previously, the Ambassador served as our Ambassador to 
Yemen from 2010 to 2013 and has served in different postings 
throughout the Middle East, including as deputy chief of 
mission in Islamabad and deputy consul-general in Jerusalem. 
Thank you for your service and we look forward to your 
testimony, Mr. Ambassador.
    Next, we welcome back Assistant Administrator Paige 
Alexander of the Bureau of the Middle East of USAID. 
Previously, Ms. Alexander has served as assistant administrator 
of the Bureau for Europe and Eurasia as well as associate 
director of Project Liberty at Harvard University's John F. 
Kennedy School of Government.
    She has also served on the board of the Basic Education 
Coalition and the Project on the Middle East Democracy. Welcome 
back.
    And last but certainly not least, we would like to welcome 
Fatema Sumar, who is the regional deputy vice president for--
listen to these areas of the world--Europe, Asia, the Pacific 
and Latin America, wow--for the Millennium Challenge 
Cooperation's Department of Compact Operations.
    Previously, Ms. Sumar was the deputy assistant secretary of 
state for South and Central Asian affairs and before that she 
was a congressional aide in the Senate Foreign Relations 
Committee, and I hear that Mr. Connolly used to be an aide in 
that--I have heard that before.
    Thank you, Mr. Ambassador. We will begin with you.

  STATEMENT OF THE HONORABLE GERALD M. FEIERSTEIN, PRINCIPAL 
  DEPUTY ASSISTANT SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Ambassador Feierstein. Thank you so much, Chairman Ros-
Lehtinen, Ranking Member Deutch, distinguished members of the 
committee. Thank you for inviting me to discuss our 
relationship with the Hashemite Kingdom of Jordan today.
    Let me also thank you for your continued support to Jordan 
over the years and in particular to express our thanks for your 
championing the United States-Jordan Defense Cooperation Act.
    Now that this legislation has passed we look forward to 
expediting consideration of letters of offer to sell defense 
articles and services to the Kingdom of Jordan, thereby 
shrinking the delivery time for these articles even more.
    As you note in the title to this hearing, Jordan is a key 
partner for the United States and has played a vital role in 
addressing virtually all of the highest priority challenges 
that the United States is facing in the Middle East.
    From countering the threat of Daesh and supporting a 
peaceful political transition in Syria to expanding prosperity 
across the region, Jordan has been an essential ally.
    The King is returning to Washington later this month and I 
know that President Obama looks forward to discussing many of 
these issues directly with him when they meet.
    Nowhere is the strength of our relationship more apparent 
than our shared efforts against the threat of Daesh and other 
extremists.
    Jordan is a committed leader in the global coalition to 
counter ISIL and the regional campaign against Daesh. Jordanian 
air force pilots regularly fly missions as part of Operation 
Inherent Resolve and have shown no sign of decreasing their 
tempo.
    As part of our broader coalition efforts against Daesh, 
King Abdullah has called upon the international community to 
challenge Daesh's recruiting.
    We are working hand in hand with our Jordanian counterparts 
to expose the false narrative of Daesh and other extremist 
groups and to deprive Daesh of financial resources.
    Jordan has been a critical partner in international 
security efforts around the world for many years. In 1996, the 
United States designated Jordan as a major non-NATO ally. They 
are also a member of the Global Initiative to Combat Nuclear 
Terrorism.
    Just last month during the King's visit, Secretary Kerry 
signed a joint action plan with Jordan to combat the smuggling 
of nuclear and radioactive materials, expressing our intent to 
work together to prevent, detect and respond to nuclear 
smuggling incidents.
    Jordan has also been an integral part of the political 
process, spearheading efforts to reach a political transition 
in Syria through the International Syria Support Group.
    Today, Foreign Minister Judeh joined Secretary Kerry in 
Munich during a meeting of this group as they deliberate on 
next steps to resolve the crisis in Syria.
    We are also deeply appreciative of Jordan's crucial role in 
efforts to achieve a lasting peace between Israelis and 
Palestinians.
    Jordan continues to demonstrate determination and resolve 
in support of our shared goals of reaching a two-state solution 
to the conflict and bringing an end to the vicious cycles of 
violence.
    Since the signing of its peace treaty with Israel in 1994, 
Jordan's engagement on Israeli-Palestinian issues has been 
critical to our ongoing efforts to advance peace and stability 
in the region including this past fall when Jordan worked 
closely with us to help defuse tensions in Jerusalem on the 
Haram al-Sharif Temple Mount compound.
    However, our partnership with Jordan goes beyond our two 
Governments. Trade between our two countries remain strong. Our 
free trade agreement with Jordan signed in 2000 was our first 
in the Arab world.
    Total bilateral trade reached $2.8 billion in 2015 and you 
can now find a number of Jordanian goods in U.S. markets from 
cosmetics and jewelry to air conditioners and pharmaceuticals.
    Jordanians, meanwhile, have access to Florida orange juice, 
Boeing airplanes and countless other U.S. products and services 
recognized for their quality.
    As part of our commitment to Jordan's security and 
stability during this critical time, we are providing Jordan 
with robust security and economic assistance.
    Last year, we signed a memorandum of understanding with 
Jordan signalling our intent to provide the Kingdom with $1 
billion annually in security and economic assistance from 
Fiscal Year 2015 to Fiscal Year 2017 with Congress' generous 
support.
    I know my colleague will further discuss our economic 
support but I wanted to note that Jordan received $385 million 
in Foreign Military Financing in Fiscal Year 2015, making it 
the third largest FMF recipient in the world. We will continue 
our robust support this year.
    Before I conclude, I would like to address one issue that I 
know you are aware was an urgent topic of discussion during the 
King's recent visit.
    Jordan currently hosts more than 635,000 registered Syrian 
refugees. We are working closely with the Jordanian Government 
on solutions to alleviate the strain on the country including 
how to handle ongoing humanitarian challenges for the 22,000 
refugees on the Syrian-Jordanian border.
    Chairman Ros-Lehtinen, Ranking Member Deutch, our 
partnership with Jordan remains strong and our military 
coordination and assistance has never been closer.
    From their counter-Daesh activities to Jordan's active 
participation in a number of peacekeeping operations around the 
world, Jordan is a strong friend and an essential partner in 
our pursuit of regional peace and prosperity.
    Thank you for the opportunity to testify. I look forward to 
taking your questions.
    [The prepared statement of Ambassador Feierstein follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Ambassador.
    Ms. Alexander.

  STATEMENT OF MS. PAIGE ALEXANDER, ASSISTANT ADMINISTRATOR, 
   BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Alexander. Thank you, Chairman Ros-Lehtinen, Ranking 
Member Deutch, members of the subcommittee. Thank you for the 
opportunity to discuss the United States Agency for 
International Development's assistance to Jordan.
    Jordan has one of the largest USAID missions in the world. 
Our longstanding partnership with the Kingdom dates back nearly 
six decades.
    Over the years this cooperation has improved water systems, 
trained teachers and enhanced the quality of education. We have 
also upgraded medical facilities and have increased job 
opportunities by developing key sectors of the Jordanian 
economy.
    With Congress' generous support in Fiscal Year 2015, $615 
million went into the Economic Support Fund programs that 
directly help the Jordanian people.
    Our economic assistance to Jordan is multifaceted, 
including direct assistance, sovereign loan guarantees and 
project-based programs.
    We are working to help the Government of Jordan deal with 
the significant development challenges, low economic growth, 
crowded classrooms and scarce water resources, as you all have 
discussed.
    USAID has reoriented its development assistance to better 
support the government and the people of Jordan and has 
addressed the increased needs in the areas and sectors where 
Syrian refugees have the greatest impact on the Jordanian 
communities.
    We recognize the enormous strain on resources that 
Jordanians face due to the large population increases from the 
Syria crisis.
    Our programming is designed not only to help host 
communities meet current needs but also to identify and 
catalyse innovations that meet Jordan's longer-term development 
challenges.
    My statement for the record includes more details of the 
USAID priorities and challenges in Jordan. I would like to 
briefly give you some examples here.
    USAID supports the Government of Jordan's reform agenda, 
focusing on strengthening civil society, rule of law and good 
governance with partners such as the chairman's mention of IRI.
    During my trip to Jordan last year, I met with local 
officials in communities hosting these large refugee 
populations. They told me the assistance they received from the 
American people has been invaluable.
    For example, USAID partners with local communities and 
officials to identify the real stressors and the priorities in 
community life, and then USAID--with our partners--helps the 
municipalities implement very practical solutions, things such 
as paving streets, replacing broken street lights or picking up 
the trash, which make a major difference in these communities.
    USAID's economic development and energy programs in Jordan 
have evolved over the years from building roads to building a 
more diverse and globally competitive economy.
    One program has awarded nearly 100 grants totalling more 
than $5 million to small- and medium-sized enterprises.
    One of these grants went to the Andalus Dairy Factory run 
by a local cattle farmer association in northern Jordan. With 
the help of the project, the factory entered a partnership with 
Safeway and achieved $140,000 annual increase in revenue and 
now they are on track to double that increase in the coming 
year.
    We are also the lead donor for education in Jordan where 
the Syria crisis is having a profound effect on the public 
schools. To help the Jordanians meet this challenge, USAID has 
expanded 120 schools, renovated 146 schools and built 25 new 
schools in areas where there are large population increases 
from the refugee flows.
    We are also fast tracking the expansion of 20 schools in 
the most needed areas. Just last week, I attended the London 
conference where Secretary Kerry announced the additional $267 
million commitment for education in Jordan.
    This will help Jordanian public schools provide quality 
education for an estimated 230,000 Syrian refugee children and 
another 500,000 Jordanian students.
    I want to share one particularly inspiring story, that of 
Maha Al Ashqar. She is the principal of the Khawla bint 
Tha'laba Primary Girls' School.
    When a Syrian refugee mother approached the school and 
wanted to get her child in, she was told that the classes were 
full. She approached the principal and Ms. Al Ashqar's response 
was simple--yes, your daughter can come to school, I ask that 
you bring a chair because we have run out of chairs.
    It is by supporting educators and families determined to 
get ahead that we can make sure more children are not lost to 
this conflict.
    We are also working to ensure that the humanitarian 
assistance we provide to Syrian refugees has benefits for the 
local Jordanian economy.
    For example, we fund a food voucher debit card for Syrian 
refugees. I believe the two of you saw this when you were in 
the camp. I actually brought one because it is nicely branded 
as well.
    And, for example, with these vouchers these cards are used 
to shop in the local Jordanian supermarkets and stores. They 
give the users a dignified way to buy food for their families, 
giving them more choice and nutritional diversity than food 
handouts would permit.
    It has also provided an important economic boost for the 
host country. It is estimated that the program has injected at 
least $428 million into the Jordanian economy, providing new 
jobs and new revenues to food retailers, traders and producers.
    Going forward, we need to think about how to preserve the 
important development gains made through the years of bilateral 
assistance to Jordan while developing creative solutions that 
help to meet the complex challenges posed by refugees living in 
these host communities.
    Thank you for the opportunity to appear before you today 
and I look forward to your questions.
    [The prepared statement of Ms. Alexander follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Ms. Alexander.
    Ms. Sumar.

    STATEMENT OF MS. FATEMA Z. SUMAR, REGIONAL DEPUTY VICE 
    PRESIDENT, EUROPE, ASIA, THE PACIFIC AND LATIN AMERICA, 
    DEPARTMENT OF COMPACT OPERATIONS, MILLENNIUM CHALLENGE 
                          CORPORATION

    Ms. Sumar. Well, thank you so much and good afternoon.
    Thank you, Chairman Ros-Lehtinen, Ranking Member Deutch and 
members of the subcommittee for the opportunity to discuss the 
Millennium Challenge Corporation's work with our partners in 
Jordan to fight poverty.
    I request that my full written testimony be submitted for 
the record.
    Ms. Ros-Lehtinen. Without objection.
    Ms. Sumar. MCC forms partnerships with some of the world's 
poorest countries, but only those committed to good governance, 
economic freedom and investment in their citizens.
    MCC provides these select countries, like Jordan, with 
grants to fund country-led projects and reforms designed to 
reduce poverty by promoting sustainable economic growth.
    MCC's Board of Directors selected Jordan as eligible for a 
threshold program in 2005. The threshold program supported 
Jordan's efforts to strengthen local government by increasing 
transparency and accountability.
    The program also sought to enhance the efficiency and 
effectiveness of their customs administration as a way to 
encourage trade. Our $275 million compact with Jordan began 
implementation in December 2011 and will end in December of 
this year.
    Because Jordan is one of the most water-scarce countries in 
the world, our compact focuses on increasing the supply of 
water available to households and businesses and improving the 
efficiency of water delivery, wastewater collection and 
wastewater treatment.
    Affordable access to clean water is critical not just for 
businesses and agricultural producers but for all Jordanians. 
The scarcity and expense of water constrains the country's 
economic potential.
    Though our partnership began before the crisis in Syria 
erupted, Jordan's generous response to that crisis has only 
compounded the strain on the country's water supply, making 
MCC's work there even more critical.
    The compact includes three closely-related projects to 
address the needs of the goverment's entire water system. 
First, as you saw during your visit there, the biggest 
investment of the compact is the expansion of the As-Samra 
Wastewater Treatment Plant, originally built with support from 
USAID.
    It is the primary facility for treating wastewater from 
Jordan's Amman and Zarqa governorates where much of the 
country's population lives.
    The expansion increased the plant's capacity by more than 
one-third, while more than doubling its capacity to handle 
certain chemicals and other materials.
    It now treats 70 percent of the country's wastewater. One 
of the most interesting aspects of this project is its 
innovative financing.
    MCC's grant is paying for the expansion in partnership with 
a private sector operator. This public-private partnership 
allowed MCC's investment of $93 million to mobilize an 
additional $110 million from the private sector.
    Through this financing method, the private sector not only 
provides over 50 percent of the cost of construction, it also 
ensures that the facility is operated and maintained at world 
class standards for 25 years.
    Second, the wastewater network project will modernize and 
upgrade the outdated sewer system in Zarqa. This project has 
already replaced or rehabilitated trunk sewer lines and 
expanded the system by laying over a 139 miles of sewer pipe.
    And third, our water network restructuring project--before 
this project, if you can imagine, as much as 50 percent of 
water that entered the system was lost both through leaks in 
the network and weak management--an unsustainably high loss 
rate, given Jordan's scarce water resources.
    This third project has repaired reservoirs and pumping 
stations, and already replaced more than 70 percent of the 
targeted 495 miles of urban drinking water pipelines.
    What is perhaps most notable about this program and about 
all of MCC's compacts with our partner countries is that it is 
the Jordanians who determined which problem we should address 
and how we should tackle it.
    Following the end of our engagement with our partner 
countries, we perform impact evaluations where possible to see 
how successful our projects were in reducing poverty.
    In Jordan, we are implementing an innovative impact 
evaluation of the benefits of our projects to Jordanian 
households and farmers.
    This impact evaluation will be one of the first of its kind 
to measure the economic benefits of improved water 
infrastructure. The success of this evaluation and of our 
overall compact is a product of the close relationship between 
MCC and the Government of Jordan.
    The Government of Jordan has been an excellent partner in 
the development and implementation of the compact.
    Thank you again for the invitation to testify, and I look 
forward to answering any questions.
    [The prepared statement of Ms. Sumar follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                       ----------                              

    Ms. Ros-Lehtinen. Thank you so much for excellent 
presentations. I will begin the question and answer period.
    One of Jordan's critical needs is energy, although not as 
burdensome now since, thankfully, oil prices have taken dive. 
But Jordan has almost no domestic production to talk about, 
importing around 97 percent of its energy needs.
    The agreement to import natural gas from Israel could be a 
game changer, not just for Jordan and Israel but for the entire 
region.
    Ambassador Feierstein, would you talk about the significant 
foreign policy benefits for all parties involved with this 
agreement? What has the U.S. been doing to promote these 
exports, given that there have been some challenges faced on 
both sides?
    Ambassador Feierstein. Absolutely, Congresswoman Ros-
Lehtinen.
    The United States has been strongly supporting the efforts 
of the two parties with Noble Energy, an American energy 
provider, to reach agreement to draw natural gas from the 
Leviathan Field as well as the Tamar Field in Israel and those 
talks are going forward with a great deal of encouragement from 
the United States.
    Our acting assistant secretary for energy, Amos Hochstein, 
has been very much involved in promoting the efforts and 
discussing this and we are optimistic that these--that these 
contracts will be completed and that the gas will be provided 
to Jordan.
    As you said quite correctly, it's going to be a significant 
bonus for Jordan, a reliable sustainable source of energy for 
them to fuel their economic growth and development going 
forward.
    Ms. Ros-Lehtinen. Thank you. And, Ambassador, water is also 
a critical need. In the Fiscal Year 2016 omnibus bill, Congress 
appropriated $100 million in Economic Support Funds to be set 
aside to Jordan for supporting its Red to Dead Canal Project 
pending completion of the relevant studies and assessment.
    How are--where are we on those assessments? What obstacles 
are needed to be overcome in over to get this project up and 
running?
    Ambassador Feierstein. Thank you, and absolutely we 
appreciated the congressional decision to provide $100 million 
for the Red to Dead effort.
    We are engaged very closely with the Government of Jordan 
as well as with the Israelis and the Palestinians, pushing that 
forward.
    As you noted, and Ms. Alexander may be able to comment as 
well, we are engaged in the effort to complete the 
environmental impact studies and the other work that is 
necessary.
    But we also believe that we are moving closer, perhaps in 
another month or two, to having a meeting that will bring all 
of the parties together to continue the design work and to 
further the implementation of that project.
    Ms. Ros-Lehtinen. Thank you, sir.
    And, Ms. Alexander, you noted that Jordan hosts one of the 
largest USAID missions of the world and we also noted not just 
the willingness of the government to work with our mission but 
that the Jordanian people very much welcome a lot of the work 
that we do there.
    The Kingdom represents a relatively open space and a 
difficult region for civil society and the sort of work that 
USAID is looking to expand on in areas that it is hoping to 
strengthen.
    Does Jordan's willingness to work on these issues suggest 
an opportunity for increased support for democratic 
institutions?
    What would that look like and are we focusing too much of 
our assistance on meeting the needs of the Syrian refugees and 
not enough on Jordan's actual development needs?
    And I encourage USAID to explore new entities, a new 
partnership with groups who have a proven track record of local 
democratic governance in Jordan.
    What type of local government assistance gives us the 
ability to strengthen the stability of a country like Jordan, 
given the immense pressure that it is under?
    Ms. Alexander. Thank you.
    I agree that the global economic crisis has really 
undermined all the previous gains that the Jordanian Government 
had had--reduced exports, remittances, reduced tourism revenue, 
as referenced before, and foreign direct investments.
    So the loss of this and then the trading partners of Egypt, 
Syria and Iraq that had been such a valued part of the economy 
and the economic development for Jordan has really set them 
back.
    However, having such an excellent partnership with the 
Jordanian Government, we have continued to work very closely on 
the Jordan response plan and reoriented our assistance to make 
sure that we are addressing their needs as well as the 
stressors on the sectors, whether it is education, health, or 
water.
    So I think the partnership is valuable. I would not say 
that there is a lack of understanding between the need between 
the Syrian refugees and the host communities.
    I think that we are working very hard to make sure that we 
are addressing the Jordanian Government's concern about that.
    Ms. Ros-Lehtinen. And finally, as I mentioned earlier, 
Congressman Deutch and I visited that wastewater project during 
our last visit to Jordan together and it was remarkable how 
much progress had been made on such an important issue for 
Jordan--water--and I think that--I know that Jordan's MCC 
contract is completed at the end of this year--the compact 
focused on three major water projects.
    But Ms. Sumar, with Jordan being such an important player 
for the region and its stability vital to ensuring that the 
entire region doesn't descend into something much worse, do you 
think that Jordan would be a good contender for a second MCC 
contract--compact and, if so, what areas would be best to focus 
on for future projects?
    Ms. Sumar. Well, thank you, Madam Chairman, for the 
question and thank you for taking the time to visit the plant 
during your visit to Jordan.
    As you noted, we have had terrific success in this compact 
because of the strong partnership we have with the Government 
of Jordan and our implementing partner, the Millennium 
Challenge Account in Jordan.
    According to our statute from Congress--our legislation, we 
are both time-bound in the way we operate but we are also bound 
by income levels. MCC only works in countries with both low 
income and lower middle income status as defined by the World 
Bank.
    Currently, starting in Fiscal Year 2012, Jordan graduated 
from lower middle income status and is currently an upper 
middle income country.
    There are ongoing negotiations and conversations, I 
understand, between the Government of Jordan and the World Bank 
on its population numbers, given the flows from the refugee 
crisis, which could change some of those calculations, given 
its GNI per capita.
    We look forward to hearing the decision from the World 
Bank, which is where we get our data from. But currently Jordan 
would not be a contender for a second compact because it has 
graduated to upper middle income status and that is a 
consideration that we have to take seriously in our 
legislation.
    Ms. Ros-Lehtinen. Thank you so much.
    And I would like to yield now to my great colleague, 
Congressman Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    Ms. Alexander, outside of the refugee-specific initiatives, 
what other successes can you point to in supporting job 
creation initiatives in Jordan?
    Ms. Alexander. Thank you.
    Our economic development assistance has worked on 
everything from fiscal reforms at the ministries to make sure 
we have long-term sustainability and better procedures in 
place.
    We have also worked in the health care sector and I would 
say that building maternal and child health care--child 
facilities and pediatric facilities--we have modernized the 
health workforce and we have established a health quality 
assurance mechanism.
    The financial sustainability of almost all of the issues 
including water is a major one, as referenced earlier, with 90 
percent of the water imported--gas and energy, sorry, imported. 
That has become a major issue for us.
    In the water sector we are looking at nonrevenue water loss 
and working directly with the ministries to make sure that they 
are tightening up their systems.
    So I would say it is on a fiscal side with the ministries 
as well on the local government side with making sure that 
civil society is listened to in a lot of these communities that 
are suffering from stress.
    Mr. Deutch. Great. Thanks.
    Ambassador Feierstein, King Abdullah makes very strong 
pronouncements in the international community that Arab states 
must lead the fight against ISIS.
    Can you just share your insight as to whether the Jordanian 
public is still supportive of the country's involvement and 
leadership role in the campaign against ISIS?
    Ambassador Feierstein. Thank you, Congressman Deutch.
    I believe that our assessment is that there is still a high 
level of support within the Jordanian community for the effort 
to combat violent extremism.
    The King and the Government of Jordan have done a good job 
of trying to explain to the Jordanian people what the 
challenges are, what the threat is to Jordanian security and 
stability.
    He has engaged broadly with not only the political leaders 
but also with religious leaders, motivating and energizing 
imams to speak out in the mosques against the threat of violent 
extremism.
    And in this context, I think that the Jordanians have 
really been leaders not only in terms of how they have 
approached the challenge and the issues within Jordan but also 
in trying to assist and to build a broader Sunni Arab coalition 
that speaks out very strongly against this threat.
    Mr. Deutch. How helpful do you think the King can be with 
respect to halting Russian aggression against the moderate 
opposition in Syria? Is there a role for the King there?
    Ambassador Feierstein. Well, this is an important issue 
and, of course, as you know, the King did try to engage the 
Russians in an effort to prevent the expansion of the conflict 
toward the Jordanian borders in southern Syria.
    Our understanding, based on our discussions with him, is 
that he has been disappointed, of course, in the lack of 
Russian responsiveness, although when he discussed this 
directly with President Putin he was under the impression that 
the Russians would be cooperative with this effort.
    To be entirely honest, we were skeptical of the effort and 
we remain skeptical. But the King believes that this is an 
important element and that he needs to be able to speak to the 
Russians and try to get the Syrian Government to go along with 
this.
    So he is going to continue to try. But I think that at this 
point he is a little bit more skeptical and wary about how the 
Russians might respond.
    Mr. Deutch. Great.
    And then, finally, just turning away from Jordan just for a 
second since you are here, I understand there is legislation in 
the Senate, the Justice Against Sponsors of Terrorism Act, that 
passed out of the Senate Judiciary Committee recently, and as a 
member of both Foreign Affairs and Judiciary Committees here in 
the House, I have an interest in that.
    Since you are here, I thought I would ask whether the 
department has a position on this bill.
    Ambassador Feierstein. Thank you very much for that 
question, Congressman Deutch, and we do.
    We understand and sympathize with the motivation behind the 
JASTA legislation. The proposed remedy, however, would enact 
broad changes in longstanding international law regarding 
sovereign immunity that, if applied globally, could have 
serious implications for U.S. interests.
    Before proceeding with the legislation, we believe there 
needs to be more careful consideration of the potential 
unintended consequences of its enactment and we would welcome 
opportunities to engage with the Congress in that discussion.
    Mr. Deutch. Thank you, Mr. Ambassador.
    Thanks to all of our witnesses for being here today.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    Mr. Rohrabacher.
    Mr. Rohrabacher. First and foremost, I would like to thank 
you, Madam Chairman, for your leadership over the years.
    I have been serving in Congress with you for 28 years and 
you have been a dynamo on those issues that are vital to our 
national security and to human rights as well. So thank you for 
bring this up today.
    Because today you have focused our attention on a country 
that is indispensable to the cause of peace in the Middle East. 
Without Jordan, we all lose.
    Everybody loses if Jordan succumbs to radicalization, and I 
would say that we need to pay this kind of attention all the 
time toward this.
    Let me ask a little bit about the--I learned a long time 
ago. My parents came from dirt-poor farms in North Dakota and 
that was long before they had any of the oil or anything up 
there. And I was taught that people can't be prosperous--
ordinary people can't live a prosperous and decent life without 
enough energy but also enough water.
    And you were just going through in the testimony the water 
projects and how much money has been put into that. Is there 
still a water shortage in Jordan after the investment that we 
have made?
    Ms. Alexander. I will say yes. It has been the third most 
water-scarce country in the world and so this is why a lot of 
our assistance at USAID has focused on issues such as 
nonrevenue water loss and, specifically, reforming and 
restructuring how to make this system more efficient.
    I will turn it to my colleague to talk about the MCC work.
    Mr. Rohrabacher. Right.
    Ms. Sumar. Certainly, Congressman, it is--not only is it 
one of the most water scarce countries in the world, it is a 
country that is strained under burgeoning population flows.
    And so the investments that MCC has been making over the 
past 5 years are intended to not only take a look at the 
current needs of the Jordanian people in the cities but also 
take a long-term view of the kind of economic growth that is--
--
    Mr. Rohrabacher. Is it based on reclamation? Is that your--
the system that you have been providing support for in Jordan?
    Ms. Sumar. It is based on three different principals. One 
is that we need to add different parts of wastewater treatment 
so that you don't have sewage flowing over into your major 
cities and streets.
    In order to do that, we built this signature project, which 
is the As-Samra Wastewater Treatment Plant. Connected to that 
are wastewater pipes that would be needed to actually pipe out 
the sewage from the cities into the treatment plants. So we 
have built hundreds of kilometers of those pipes.
    But the third part of that and particularly most important 
for people's everyday lives is to make sure they also have the 
drinking water that they need and the drinking supplies.
    So the third component is building the water pipes for 
drinking water. As a result of that entire holistic 
intervention, what we are seeing is not just piping the 
wastewater out, treating and cleaning it but pumping that water 
in a clean way back into the irrigation system of Jordan.
    So one of the biggest results we have seen is we have freed 
up to 10 percent of water to use for irrigation in the Jordan 
River Valley. That is fresh water that we are now putting back 
into the system and it is increasing its availability for 
farmers and beneficiaries alike.
    Mr. Rohrabacher. Well, just to let you know, I come from 
Orange County, California, and in Orange County we are on a 
desert and we have a water system now--reclamation system in 
which we reuse our water nine times before it is let out into 
the ocean.
    And I would hope that that type of gray--with the use of 
technology we can help solve that problem and we should 
certainly be sharing that technology with the people of Jordan.
    And second of all, about the Red Sea to Dead Sea project, 
is that going to be a reality? This is something that is going 
on that provides both energy and water, does it not?
    Ms. Alexander. As my colleague had previously mentioned, we 
are working to understand a long-term economic viability of the 
project and to ensure that we have plans in place to mitigate 
any environmental impacts of the project.
    We have worked very closely with our colleagues at State 
and consulting with the Jordanians and the Israeli Government 
and we do think there is a meeting coming up where the next 
phase of this will be discussed.
    Mr. Rohrabacher. I am concerned, frankly, and Madam 
Chairman, we see this here in the United States as well. There 
are, you know, people who believe the environment and keeping 
it a clean environment is their number-one priority and 
sometimes they are a little bit too, how do you say, 
unrealistic about the cost of having a 95-percent situation 
rather than a 100-percent situation.
    And the Red Sea to Dead Sea project has been going on for a 
long time and offers such a great potential for benefit for 
economic, and economic benefit means how good--how well people 
are living--ordinary people--and I would hope that people who 
are taking the extreme positions on the environment are not 
undermining the well being of women and children who are trying 
to live their lives today, which I think would be greatly 
benefited by that project.
    With that said, we ought to do everything we can and thank 
you for leading the effort to do something good for a good 
friend of the United States.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Rohrabacher.
    And thank you to our panelists for excellent testimony. 
Thank you to the Ambassador for joining us, and with that the 
subcommittee is adjourned because we will have votes in about 5 
minutes.
    Thank you so much.
    [Whereupon, at 3:04 p.m., the committee was adjourned.

                                   
                                     

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
